<html>
<title> - ZIMBABWE: FROM CRISIS TO RENEWAL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    ZIMBABWE: FROM CRISIS TO RENEWAL

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 2, 2010

                               __________

                           Serial No. 111-137

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
62-664                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88f9887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Steven McDonald, Consulting Program Director, Africa Program, 
  Woodrow Wilson International Center for Scholars...............     6
Mr. Sydney Masamvu, Political Analyst, Institute for Democracy in 
  Africa (IDASA).................................................    16
Mr. Deprose Muchena, Program Manager, Economic Justice, Open 
  Society Initiative for Southern Africa (OSISA).................    24
Marian L. Tupy, Ph.D., Political Analyst, Center for Global 
  Liberty and Prosperity, CATO Institute.........................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Steven McDonald: Prepared statement..........................     9
Mr. Sydney Masamvu: Prepared statement...........................    18
Mr. Deprose Muchena: Prepared statement..........................    26
Marian L. Tupy, Ph.D.: Prepared statement........................    36

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53


                    ZIMBABWE: FROM CRISIS TO RENEWAL

                              ----------                              


                       THURSDAY, DECEMBER 2, 2010

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2172, Rayburn House Office Building, Hon. Donald Payne 
(chairman of the subcommittee) presiding.
    Mr. Payne. The hearing of the Subcommittee on Africa and 
Global Health will come to order. Our topic today is Zimbabwe: 
From Crisis to Renewal.
    Good morning. Let me welcome all of you here today in 
regard to this very important hearing entitled: ``Zimbabwe: 
From Crisis to Renewal.'' This is the second hearing that I 
have held this year on Zimbabwe, so it is testimony to the fact 
that we feel that Zimbabwe is a very, very important country 
and that we need to focus on it to see if we can move it from 
its past and current situation to an improved one. We think 
that it is important that we continue to debate over U.S. 
policy toward that country.
    At our last hearing, I gave a brief overview of Zimbabwe's 
great history, because in the midst of ongoing political and 
economic crisis that continues to plague Zimbabwe, its past 
rich history is often forgotten. As we will hear from our 
esteemed witnesses, there is still hope for the renewal that so 
many seek in Zimbabwe.
    However, serious challenges remain. That is one of the 
purposes why we are still focusing on Zimbabwe. The purpose of 
this hearing is to explore those challenges and to discuss the 
ways that U.S. policy can have a positive impact. It is very 
easy to chastise and to sanction and to isolate. It is very 
difficult to try to see how we can have a transformational 
policy to see if we can bring a country from its doldrums into 
the new millennium as we speak.
    In September 2008, the Global Political Agreement, the GPA, 
was signed between the Zimbabwe African National Union 
Patriotic Front, ZANU-PF, led by President Robert Mugabe; the 
Movement for Democratic Change, MDC, led my Prime Minister 
Morgan Tsvangirai; and the Movement for Democratic Change 
Mutambara, MDC-M; and a coalition government was formed. Since 
then, important progress has been made, yet serious challenges 
remain and the people of Zimbabwe continue to suffer. Due to 
the difficult economic and security conditions an estimated 3 
million people fled Zimbabwe for South Africa and unemployment 
rates have reached over 90 percent. Civil society groups, labor 
unions, and other economic groups continue to face harassment 
and intimidation from ZANU-PF-ruled security forces.
    We are now 2 years since the GPA was signed. In Zimbabwe, 
as we have seen in our countries, most strikingly in Sudan, 
whose own CPA, Comprehensive Peace Agreement, is in danger of 
failure, agreements do not of themselves bring peace. The 
agreement is merely the foundation upon which a peace and a 
process of change can be built. It is a framework. And we tend 
to want to hope that the framework will work. But as we have 
seen, it is difficult and many times unattainable.
    In the case of the GPA, many see it as having already 
failed because ZANU-PF still controls much of the power in the 
coalition government. However, I believe that there are 
elements within the coalition government, not just in the 
opposition, who want to see real change in Zimbabwe and with 
whom we can work to improve the lives of everyday Zimbabweans.
    The new government has faced formidable challenges to 
responding to widespread humanitarian needs, including 
addressing a serious cholera outbreak in 2008 and 2009 that 
claimed more than 4,000 lives, and in implementing the reforms 
necessary to repair a badly damaged economy.
    Despite odds that seem stacked against progress, 
improvements have been made in several sectors by the new 
government. Ministers from MDC, particularly the economic 
reforms by Finance Minister Tendai Biti, present what many 
Zimbabweans and the international community, myself included, 
believe is an opportunity to push for political reform and 
economic recovery.
    Proof of the growing sense that Zimbabwe is slowly moving 
in the right direction is the recent establishment of the 
Enterprise Zimbabwe founded by Sir Richard Branson, Pam Omidyar 
of Humanity United, and Nduna Foundation, which seeks to 
attract investments toward Zimbabwe's economic and social 
recovery.
    Although I remain concerned about the harassment of 
opposition and civil society activists by ZANU-PF elements, the 
human rights situation has improved, though modestly.
    I had the opportunity to meet with President Mugabe in the 
spring of 2009, the first meeting of a U.S. official in several 
years, and it lasted for several hours. And I shared with him 
my concern over the lack of implementation of GPA and the 
continued harassment of human rights groups like Women of 
Zimbabwe Arise--WOZA--and opposition activists. And we had a 
very thorough discussion about that where he was ready to deny 
that it was perpetrated by his government but that these were 
things that happened. And we did see a downturn in the attack 
on the women immediately following our meetings. However, we 
have seen problems arise again.
    Despite the economic turnabout begun by Minister Biti, the 
majority of Zimbabweans face enormous challenges and live on 
less than $1 a day. Other challenges that remain include the 
approval of a new constitution that reflects the will of the 
people and the security sector reform, which is extremely 
important.
    As I have previously stated, the method of redistribution 
of land from white land owners to political allies of President 
Mugabe was misguided and wrong. However, the land issue is a 
real problem in the region, and I am committed to seeing a just 
and equitable distribution of land throughout Southern Africa 
consistent with the rule of law. We can't say that the problem 
does not exist. However, a solution to the problem has to be in 
an equitable way.
    I am also concerned about the impact that the 
indigenization law, enacted earlier this year, which requires 
all firms to have majority black shareholders, will have on the 
ability to attract investment.
    These are things which I would like to continue to engage 
President Mugabe on in a constructive way. The injustices left 
behind with the legacy of colonialism must be seriously 
addressed. They do not go away. However, it may be a more 
constructive way to look at other models for redressing these 
wrongs, such as the Black Economic Empowerment Program in South 
Africa.
    Let me again state that this is a serious issue that must 
be addressed. Again, I believe Zimbabwe is at a critical 
juncture, which requires real leadership from the U.S. to 
engage other donors in the renewal of Zimbabwe's political, 
economic, and social structure.
    Currently, U.S. policy cannot take full advantage of the 
changing realities in Zimbabwe because of restrictions on 
assistance in certain key areas. I believe with greater 
flexibility the administration would be able to do just that.
    To that end, earlier this year I introduced the Zimbabwe 
Renewal Act, H.R. 5971, which would provide the following: One, 
cancellation of Zimbabwe's debt; support for full 
implementation of the GPA assistance for democratic and 
judicial reform, economic recovery, human rights, labor rights, 
press freedom, health care, education, clean water, 
agriculture, and youth employment; support for land reform; 
technical assistance to key ministries; maintain sanctions 
where needed; and call for a review and removal of certain 
sanctions if certain conditions are met to support the GPA and 
the economic, social, and democratic renewal of Zimbabwe.
    I hope that, moving forward, this bill will receive wider 
support of this committee toward working for a better chance 
for all people in Zimbabwe.
    We have an excellent panel of witnesses today. Although the 
panel is made up of all men, we invited four different women. 
Women staff wanted me to make sure that I mention this. I 
wanted to be sure that I mentioned it.
    We invited women from Humanity United, Nduna Foundation, 
Enterprise Zimbabwe, and Zimbabwe Peace Project. And, 
unfortunately, none of them could make it today. The experts we 
have today, though, although they are not women, that is clear, 
I think that they will all do an excellent job.
    With that I will recognize our ranking member, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
for calling this very important hearing. And welcome to our 
witnesses.
    We are all familiar with the sad reports from Zimbabwe, 
recently known as the world's fastest shrinking economy. Before 
Robert Mugabe, Zimbabwe's dictator president, agreed to a power 
sharing with the Movement for Democratic Change in 2009, prices 
were known to double every 24 hours, and for 2008 the IMF 
reported inflation at 500 billion percent and economic growth 
at negative 14 percent. Though MDC reforms seem to have broken 
the hyperinflation, the situation is extremely difficult, with 
massive unemployment and immigration and broken systems of 
health care and education.
    It is difficult to even grasp the tragedy lived by millions 
of Zimbabweans. Until 10 or 15 years ago, they lived in one of 
the most prosperous African countries. Perhaps the most human 
measure of the suffering caused by economic failure is the 
decline in life expectancy, which fell from 56 years in 1990 to 
44 years in 2008. In the past 2 years, it has risen slightly, 
to 47.5. These numbers reflect millions of families without 
moms and dads and probably even more mothers and fathers who 
have lost their children.
    This is not the result of accidental misrule or weak 
government in chaotic conditions but of Mugabe's ruthless 
pursuit of total control. He is a declared admirer of the North 
Korean Juche system. According to the Heritage Foundation's 
Index of Economic Freedom in 2009, Zimbabwe ranked 178th, right 
behind Cuba and right in front of, last place, North Korea. His 
violent harassment of the opposition, human rights activists, 
and journalists includes torture and death.
    But Mugabe and his ZANU-PF party were not able to achieve, 
the same control over Zimbabwe as the Kim family has over North 
Korea. Zimbabwean civil society and human rights activists, 
including the men and women of the Movement for Democratic 
Change, have heroically organized themselves in opposition to 
Mugabe. For years, they have understood that the only way 
forward for Zimbabwe is to throw off Mugabe and the criminal 
elements of ZANU.
    After Mugabe's ease attempt to steal the 2008 election 
failed, we all hoped that the power sharing agreement that 
Mugabe was forced to accept with the Movement for Democratic 
Change and Morgan Tsvangirai would create a new situation. We 
hoped Mugabe and ZANU-PF security chiefs would have to loosen 
their choking grip on that country. Unfortunately, this has not 
happened, nor is there any sign that despite the admirable and 
often heroic efforts of the MDC that it will happen any time in 
the foreseeable future.
    Mugabe and his lieutenants have managed to keep control 
over the key level of power, to limit the MDC ministers real 
authority, often by ignoring them, and to frustrate the 
purposes of the agreement.
    And so now we are back before questions of how U.S. policy 
can encourage change in Zimbabwe, whether current sanctions on 
Zimbabwe should be retargeted and how humanitarian aid might be 
restructured.
    I want to note for the record that we are joined at our 
hearing by Jeff Flake, a member of this committee, obviously. 
But Jeff Flake actually lived in Zimbabwe between 1982 and 1983 
and he actually wrote his master's thesis on Robert Mugabe. So 
we have a man that has been following this for virtually all of 
his adult life. And it is great to have him here.
    Thank you, Mr. Chairman, for your leadership as well.
    Mr. Payne. Thank you very much.
    Congresswoman Woolsey, do you have an opening statement?
    Ms. Woolsey. A very short one, Mr. Chairman.
    Thank you.
    Zimbabwe, I believe, could have been one of the great post-
colonial nations in Africa. Instead, President Mugabe plundered 
his own country, laid waste to a profitable economy, a strong 
education sector, and a dynamic population. The proud and 
strong people of Zimbabwe deserve so much better.
    So I am looking forward to hearing from our witnesses today 
and learning if and how our foreign aid assistance is helping 
to elevate Zimbabwe back to its rightful place as a regional 
leader in Southern Africa. So thank you for this hearing.
    Mr. Payne. Thank you very much.
    Mr. Flake.
    Mr. Flake. No.
    Mr. Payne. Thank you. We will now move into our witnesses' 
testimony. Let me introduce the four gentlemen before us.
    We have with us, first, we will hear from Mr. Steve 
McDonald. Mr. McDonald is the Consulting Director of the Africa 
Program and the Project on Leadership and Building State 
Capacity at the Woodrow Center for International Scholars in 
Washington, DC, where he has worked since 2002. Mr. McDonald 
helped to design, initiate, and now manages the Center's 
leadership capacity building and post-conflict resolution 
programs in Burundi, the DRC, and Liberia. Mr. McDonald has a 
master's degree in African Politics from the University of 
London School of Oriental and African Studies, and has lived on 
and worked with Africa for 40 years.
    Mr. McDonald began his career in Africa in 1970 as an 
embassy officer in the U.S. Embassy in Kampala, Uganda, and 
later served in South Africa as the Desk Officer for Angola, 
Mozambique, Cape Verde, Guinea-Bissau and Sao Tome and 
Principe. During these years, he served as support staff to the 
Anglo-American Initiative on Rhodesia that led to the Lancaster 
House and the Zimbabwean settlement and the Five Power 
negotiations on Southwest Africa/Namibia. In 1980, Mr. McDonald 
moved to the nonprofit sector, where he has headed the U.S.-
South Africa Leadership Development Program, Aspen Institute's 
Southern Africa Policy Forum, and was one of those responsible 
for bringing Mr. De Klerk together with Mr. Mandela for their 
first face-to-face meeting under the Aspen Institute, a meeting 
I happened to have the privilege to be at in the apartheid 
following the release of Mr. Mandela while Mr. De Klerk was 
still president. He has served as Executive Vice President of 
the African American Institute. He has also done conflict 
resolution work in Northern Ireland and Brazil. Mr. McDonald 
has published, edited, and written for numerous publications.
    Next, we have Mr. Sydney Masamvu. Mr. Masamvu is a Senior 
Political Analyst at the Institute for Democracy in Africa, 
IDASA. Mr. Masamvu works on Zimbabwean issues with IDASA's 
States in Transition Observatory. IDASA's States in Transition 
Observatory provides information and analysis on political 
developments in countries experiencing a transition or crisis. 
Mr. Masamvu is a journalist by trade. In addition to his work 
for IDASA, Mr. Masamvu has researched and written on Zimbabwe 
for the past 7 years with Brussels-based International Crisis 
Group and consulted with the Elders Forum on Zimbabwe.
    Next, we have Mr. Deprose Muchena. Mr. Muchena is the 
Deputy Director and the Economic Justice Program Manager at the 
Open Society Initiative for Southern Africa. Prior to these 
appointments, Mr. Muchena worked with USAID in the Zimbabwe 
Mission as Democracy and Governance Adviser. Mr. Muchena is a 
highly respected human rights defender in Zimbabwe, having been 
among the founding members of the National Constitutional 
Assembly and continuing to serve on the boards of various NGOs.
    Earlier in his career, Mr. Muchena was at the Zimbabwe 
Council of Churches, focusing on economic and social rights and 
the role of the church in promoting and protecting fundamental 
freedoms and civil liberties.
    Finally, we have Dr. Marian L. Tupy. Dr. Tupy is a policy 
analyst with the Cato Institute's Center for Global Liberty and 
Prosperity specializing in the study of the political economy 
of Europe and sub-Saharan Africa. Dr. Tupy has worked on the 
Council on Foreign Relations' Commission on Angola and advised 
the Central Intelligence Agency and the U.S. Department of 
State on Central Europe. Dr. Tupy received his B.A. In 
International Relations and Classics from the University of the 
Witwatersrand in Johannesburg, South Africa, and his Ph.D. In 
International Relations from the University of St. Andrews in 
Great Britain. Dr. Tupy's articles have been published in a 
number of outlets both in the United States and overseas. He 
has appeared on various television programs in the United 
States and throughout the world.
    We welcome this panel.
    Mr. McDonald.

STATEMENT OF MR. STEVEN MCDONALD, CONSULTING PROGRAM DIRECTOR, 
    AFRICA PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR 
                            SCHOLARS

    Mr. McDonald. Thank you, Mr. Chairman. I appreciate your 
kind introduction.
    Congressman Smith, Congressman Woolsey, Congressman Flake, 
it is a great pleasure to have this opportunity to appear 
before you. I have had the honor of working with the 
distinguished chairman, Donald Payne, before over the last 20 
years or so, as a matter of fact. He has made allusion to that. 
And it is really, really a delight to be here again and working 
with him.
    The challenge that lies before us today reminds me a little 
bit of the work we did in the 1980s on South Africa, where we 
are dealing with a regime that needed to have some sanctions 
taken against it, needed to have a strong push to change the 
way in which things were unfolding there, but at the same time 
needed to protect the people, needed to work in a positive way 
to ensure a democratic future. And I think that is the 
challenge that lies before us today.
    I want to begin my oral testimony with a caveat about 
myself. I appreciate the introduction and all. I was involved 
very intimately and very early on in 1976 to 1980 with the 
transition from Rhodesia to Zimbabwe as a U.S. diplomat. And I 
worked in subsequent years with that country in various other 
capacities but I haven't visited Zimbabwe in 10 years. And 
while I stay in close touch with the colleagues who do visit 
and with Zimbabwean friends both in and outside of the country, 
my reflections on the current situation are, of necessity, 
secondhand.
    Therefore, having had a good look at the scope and depth of 
the testimony that you are about to hear from my colleagues 
here at the table with me who are going to describe in detail 
the current state of play and fragility of the Global Political 
Agreement--the GPA--and the transitional inclusive government 
and the human rights abuses and the economic situation that 
besets that country, I think my best focus would be on some 
aspects of what the U.S. can most usefully do to make a 
difference in encouraging the renewal of Zimbabwe that we all 
seek.
    In my submitted testimony, written testimony, I elaborate 
on the record of abuse on ZANU-PF from 1980 to 2008. I talk 
about the early optimism that I think you referred to, Mr. 
Chairman, from the international community, and Congresswoman 
Woolsey, too, and the disappointment now that exists over the 
human rights abuses, the abrogation of democratic norms, the 
corruption and mismanagement that has occurred in constituent 
years.
    In response, of course, as we well know, and as detailed in 
your opening remarks, the international community has responded 
with an application of a number of sanctions against government 
officials, redirecting of development aid through 
nongovernmental channels, statements of strong condemnation of 
human rights abuses, encouragement of the regional--SADC and 
Africa Union--peace initiatives, support for the GPA, a new 
constitution and free and fair elections, but a strong cooling 
of our bilateral relations.
    Although the implementation of a GPA has been painfully 
slow, the very fact that it exists, that the opposition party, 
the MDC holds the prime minister's office and other significant 
ministries mostly focused on the economic and development, has 
given outside observers some room for optimism.
    With signs of recovery in the economy now, continuing 
promises of cooperation amongst the parties to the coalition 
government to push through the actions called for by the GPA 
and a new government in South Africa and dynamics within SADC 
that indicate the end of a tolerance for the Mugabe regime, 
legislation has now been offered in both the House and the 
Senate that would seek to continue to apply pressure to this 
wayward regime and to the individuals who have not committed to 
the GPA, while at the same time not exacerbating the damage to 
the fabric of the economy and the welfare of the people of 
Zimbabwe; and, more important, looking to the future, 
fashioning a way to support a viable opposition and encourage a 
return to democratic governance.
    I would caution policymakers as they look at possible 
policy options to be certain there are some sticks along with 
the carrots; that monitoring of performance on democracy and 
recovery be strict and comprehensive and that they do not allow 
the government to use any lifting of sanctions, however 
targeted and whatever caveats are applied, as a propaganda 
victory.
    I know my colleagues here will offer some concrete 
suggestions in their testimony on how U.S. policy and 
engagement might be shaped in the coming years. Legislation 
offered by this body and your colleagues in the Senate offer a 
number of possible avenues for positively impacting the 
transition.
    Let me add only one further thought on one specific aspect 
of the renewal that has to come and I believe is coming. Based 
on my own experiences in other conflict and post-conflict 
countries in Africa, as well as conversations I have had with 
Zimbabweans currently engaged in pushing for recovery there, I 
would like to underline an important and often overlooked 
element in dealing with conflicted societies. Any country 
emerging from conflict has several common imperatives. They are 
intuitive but almost always ignored. Trust has been broken and 
the antagonists to the conflict do not have a sense of 
interdependence or shared interests. Relationships are torn 
asunder. Communications are characterized by posturing and 
accusations. The key stakeholders do not listen to each other 
and discourse is confrontational. Finally, there is no 
agreement on how power is to be shared and decisions made. In 
short, there is no common vision and sense of common identity.
    There are tried and tested ways in which antagonists can be 
brought together to address these issues, rebuild the trust, 
and form collaborative relations that allow them to solve 
problems together and move forward while still taking into 
account the interests of all. Sometimes this approach is listed 
as reconciliation or conflict resolution, but it is really 
conflict transformation--changing the way in which people 
compete, how they think about and interact with each other. At 
a level where insidious and self-serving interests seem 
dominant, where the outside world sees no political will from 
the opposing parties to reach out to each other, this job, of 
course, can be very, very difficult.
    But my program at the Woodrow Wilson Center, as the 
chairman has mentioned, has been pioneering this methodology 
for over 8 years in Burundi and the DRC and Liberia with 
increasing levels of success and the formation of networks of 
committed leaders to work together for a common future. These 
are ideas that I have explored with colleagues at IDASA and 
IDAZIM, who are at the table here today, in Johannesburg, and 
Search for Common Ground here in Washington and Harare, and we 
are exploring how best we might be able to assist in the 
transition as the renewal of Zimbabwe begins to take place.
    The points of entry will differ from programs we have done 
elsewhere, and one might have to start at a local or community 
level. Civil society, along with political power brokers, must 
be involved. But it must be a part of any renewal effort, in 
tandem with or even preceding the setting in place of 
institutional frameworks and processes, such as elections. 
Without trust, without a shared vision, without a sense of 
interdependence and willingness to collaborate, the agendas of 
democratic governance, development, reconciliation, and 
recovery cannot go forward.
    I am pleased to see that bills now under consideration 
address this element by providing support for reconciliation 
efforts, strengthening local government, and encouraging a 
peace-building process. I hope this remains central to any role 
the U.S. decides to play.
    Thank you very much, Mr. Chairman. I am willing to take any 
questions.
    [The prepared statement of Mr. McDonald follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you very much.
    Mr. Masamvu.

 STATEMENT OF MR. SYDNEY MASAMVU, POLITICAL ANALYST, INSTITUTE 
                FOR DEMOCRACY IN AFRICA (IDASA)

    Mr. Masamvu. Thank you, Mr. Chairman, and members of the 
committee, for inviting me and my organization. We look forward 
to testifying to this committee.
    Mr. Chairman, it is an honor for me to talk about: 
Zimbabwe: From Crisis to Renewal. But I want to state from the 
outset that Zimbabwe faces a critical 6 months. The honeymoon 
which has been enjoyed over the past 18 months is a result of 
the formation of the inclusive government, which brought some 
semblance of stability and peace, is about to end.
    In coming to the new year, Zimbabwe will enter into an 
election mode. I believe before we even look forward to the 
renewal of Zimbabwe, we need the U.S., along with other actors, 
need actually to be on top of the situation and try to 
influence events in the next 6 months which have the capacity 
to bring Zimbabwe back to the period of March 2008.
    Two critical elements are looming large with regard to the 
situation unfolding in Zimbabwe in the next 6 months--the 
election process and the key role of the military in that 
particular election.
    I think, Mr. Chairman, it is important to note that the 
issue in Zimbabwe is no longer about the credibility of 
elections or the perceived outcome of the elections. The 
critical issue in Zimbabwe is about the power transfer. It is 
important right now that any intervention in Zimbabwe has to 
smoothen the key elements which undercut or which undermine the 
voice of the people, which they have done, which they have 
spoken to over the past 10 years.
    Any process or any legislation which can be pushed from 
wherever source which marginalizes and underlooks the key role 
played by the military in the Zimbabwe crisis will actually 
achieve nothing to push the transition forward and return the 
country to democracy. The military which is the one which 
actually for the past 18 months has actually been dictating the 
course of events in the inclusive government. All the issues 
which are sort of the fractionality of the inclusive government 
has largely been undermined by the key role played by the 
military, which behind the scenes is the one which is playing a 
key role of driving the leaders of power in Zimbabwe.
    So as we move forward I think the immediate objective in 
the next 6 months, before we even talk of renewal, is actually 
to influence the issue of the election process and try to 
structure a transition process which takes on board the 
concerns of the military, which by extension is taking on board 
the concerns of President Robert Mugabe.
    Over the past 8 years it has been quite clear that the 
restrictive measures which have been put in place have failed 
to a very large extent to achieve the objective which they have 
set out to do. The restrictive measures were put in place to 
encourage the return of Zimbabwe to the rule of law, to promote 
good governance, and actually to encourage those undermining 
democracy in Zimbabwe to change course. But, alas, 8 years down 
the line those measures have not achieved the set out 
objectives. And we believe going forward it is actually 
important that the restrictive measures we have put in place 
because of a flawed election and the upcoming election, 
whenever it is held, should actually set out the platform in 
which the whole issue of restrictive measures should be viewed 
within the context of an election process.
    It is our considered view that unless the U.S., working 
through the AU, SADC, and with South Africa, the U.S. should 
actually take a leading role in actually bringing together the 
key elements within the region and on the continent to actually 
smoothen the transition process in Zimbabwe and broaden the 
platform--not only look at restrictive measures, but also 
looking at the concerns, fears of the military establishment, 
which is actually key in smoothening the transition process in 
Zimbabwe. If those issues are not addressed, critically the 
issues which affect the military, I think it would be premature 
for us even to talk of a Zimbabwe renewal before we talk 
actually of influencing the key elements which are actually 
extending the way of democratization.
    I thank you, Mr. Chairman.
    [The prepared statement of Mr. Masamvu follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you very much.
    Mr. Muchena.

  STATEMENT OF MR. DEPROSE MUCHENA, PROGRAM MANAGER, ECONOMIC 
  JUSTICE, OPEN SOCIETY INITIATIVE FOR SOUTHERN AFRICA (OSISA)

    Mr. Muchena. Thank you, Mr. Chairman and honorable members 
of the committee. I appear before you as a very patriotic 
Zimbabwean who is part of a post-colonial generation in 
Zimbabwe but trying very hard to have a role to play in the 
progress of our country. I want to underscore the points 
already made by Mr. Masamvu, which is to say the next 6 months 
represents a critical crossroads for Zimbabwe because what we 
have seen is the return of election talk without implementing 
fully the requirement of the Global Political Agreement, which 
would allow a credible election to take place and transfer of 
power to take place and a legitimate democratic government to 
become the product of that. That has always been the purpose of 
the GPA, to facilitate the transition of Zimbabwe from crisis 
to renewal.
    Four critical goals of the Global Political Agreement are 
overdue for delivery. The first is a new constitution approved 
through a popular vote; the second is a free and fair media 
environment; the third is a reformed electoral system with a 
clean voters' law that doesn't have ghost voters on it. The 
fourth and last is an agreed-upon package of security sector 
reforms that would facilitate noninterference of the military 
in the conduct and running of elections. These four things have 
not been delivered, and they have therefore undermined progress 
that had been hitherto achieved on the economy since the 
inauguration of the inclusive government.
    Last week, on the 25th of November, on Thursday, the 
Minister of Finance submitted a budget to Parliament for 2011. 
The total budget is $2.6 billion. And of that, 82 percent of 
that budget is going to go toward financing recurrent 
expenditure and only 18 percent is going to be for capital 
investment. That represents a precarious position on the part 
of Zimbabwe. And if you have the national debt of $6.7 billion, 
then you can see that Zimbabwe needs to pass a similar budget 
for the next 3 years to finance the debt, and it has become the 
albatross around Zimbabwe's neck.
    So limited political movement and reform is beginning to 
undermine economic progress, and the inability of the 
government to finance the debt is creating mutually enforcing 
political and economic crisis. The view of this more fully 
appears in my statement.
    I think there are about four things that we need to be 
supporting. It is time, in my view, for leadership and not 
necessarily legislation, because post-election, that is when 
you can actually provide legislation that responds and rewards 
or punish. The U.S. Government would need to renew its 
leadership role with SADC. It is the African Union Sharm el 
Sheikh resolution that resulted in the GPA's coming into place. 
We need to bring the AU back into the fold, ensure that there 
is a special envoy working with SADC, to make sure that 
progress is made. We need the U.S. Government to really 
encourage much more robust audits of what has happened to date. 
We also need the U.S. Government to freeze the legislative 
process and use its diplomatic muscle to ensure that the two 
submissions I am making are achieved.
    The final part, because of elections that are coming, in 
the absence of freedom and in the absence of funding, we need 
to establish or the establishment of a Zimbabwe election fund, 
which is managed by the U.N. That ensures that the Zimbabwe 
Election Commission is ready to carry out elections. Last week, 
the budget statement did not make available resources for 
running the election. It only says there should be an election 
fund. So it creates serious problems if you talk about election 
without supporting the resolution of those elections and 
financing.
    The last one is really a much more sharper focus on the 
role the military has played in Zimbabwe. It is important to 
re-energize the focus of SADC and the AU so that the military 
can move away from the premise of supporting regime security 
toward supporting human security and development. We have no 
role in modern democracies for the military to leave the 
barracks and begin to be involved in processes of election 
management or even governance.
    I think I am prepared to take any questions, as appears 
more fully from my statement. Thank you very much.
    [The prepared statement of Mr. Muchena follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you very much.
    Dr. Tupy.

 STATEMENT OF MARIAN L. TUPY, PH.D., POLITICAL ANALYST, CENTER 
       FOR GLOBAL LIBERTY AND PROSPERITY, CATO INSTITUTE

    Mr. Tupy. Mr. Chairman, members of the committee, ladies 
and gentlemen, I am honored to give my testimony on Zimbabwe: 
From Crisis to Renewal. The power-sharing Global Political 
Agreement of 2008 was meant to return Zimbabwe on a path to 
democracy and economic prosperity. It was, however, a very 
flawed document that ignored the express will of the Zimbabwean 
people. It left the military and the Department of Justice in 
the hands of the ZANU-PF. Crucially, as it turned out over the 
past 2 years, it left the ZANU-PF also the control of the 
Ministry of Mines.
    The mining ministry is essentially an offshoot of the 
Zimbabwean military. Over the past 2 years, it has been 
awarding mining concessions for exploration of Zimbabwe's 
natural resources, including diamonds and gold, to a number of 
South African, Chinese, and Russian state-controlled or 
government-linked corporations. Part of the proceeds from those 
mining operations are then channeled back to the Zimbabwean 
military and the ZANU-PF. Reports indicate that laborers in 
Zimbabwean mines includes Chinese and Zimbabwean prisoners. The 
sharing of the proceeds from mining exploration with the 
military but not with the rest of the population suggests that 
Mugabe and ZANU-PF are trying to buy the loyalty of the armed 
forces to order a crackdown on the opposition in the future.
    To sum up, the GPA did not represent a power to democratic 
forces. It is therefore unsurprising that the ZANU-PF has 
essentially blocked progress on reforms that are vital if 
electoral reform, or rather democratic transition is to take 
place. Among the measures blocked by the ZANU-PF are the 
drafting and adoption of the new constitution, liberalization 
of the media, reform of the electoral system and 
depoliticization of the military and the police force. It is my 
belief that the uneasy truce between the two parties will 
unravel as soon as ZANU-PF decides that the benefits of 
eliminating the MDC outweigh the costs of terminating the 
remnants of the GPA.
    So where do we go from here? First of all, it is the 
responsibility of the Zimbabwean people to chart their own 
course. There are clear limits to what the United States 
Government and well-meaning Americans can do. Here are some of 
the measures that I believe the United States Government can 
do: The continuation of targeted sanctions against persons and 
companies responsible for perpetuation of violence and economic 
mismanagement in Zimbabwe; spearheading of international effort 
to further isolate Mugabe and ZANU-PF, which could include 
intensive pressure on governments in the region to resolve the 
issue of Zimbabwe in favor of democracy and economic growth; 
ban of the exports of blood diamonds from Zimbabwe under the 
Kimberly Process Certification Scheme.
    Lastly, continuation, and preferably, expansion of the 
Voice of America radio coverage to Zimbabwe. Most Zimbabweans 
rely on radio for news. Speaking to one of the senior 
opposition leaders in Zimbabwe, I have learned the VOA is the 
only truthful voice coming to Zimbabwe. In every village, 
people listen to the radio. Unfortunately, the VOA broadcast 
only lasts for 1 hour a day. I find it absolutely astonishing 
that 10 years after Zimbabwe embarked on its road to ruin, the 
VOA broadcasts are that short. Having grown up behind the Iron 
Curtain, I can personally attest to the power of truthful 
information in undermining tyrannical regimes.
    The role of the Radio Free Europe/Radio Liberty in the 
collapse of communism was, I believe, absolutely vital. The 
U.S. Government has often expressed its willingness to step up 
its financial aid to Zimbabwe, and yet I believe that the U.S. 
Government can help the people of Zimbabwe in a much more 
effective and efficient way by enabling more Zimbabweans to 
access truthful information on a more frequent basis. Let the 
people make up their minds about the course of action they want 
to take to improve their lot.
    I believe that the following actions should be avoided: 
Provision of foreign aid to the government of Zimbabwe either 
now or in the event of the government falling into the hands of 
the MDC. Experience shows that aid is a disincentive to reform. 
Without recourse to aid, the government of Zimbabwe has already 
taken some very important steps that could generate growth in 
the economy. Among that is the legalization of possession and 
trade in foreign currencies and partial liberalization of the 
business environment. These positive reforms have been offset 
by the threat of renewed political violence, uncertainty 
surrounding property rights, and indigenization policy that was 
already discussed.
    Far from stimulating development in Africa, aid has 
retarded it. I see no indication whatsoever that foreign aid to 
Zimbabwe would unleash economic growth. Quite to the contrary, 
it would likely slow it. In the past, aid to Africa has been, 
by and large, stolen or wasted. There is no surer way to 
corrupt a few remaining honest politicians and civil servants 
in Zimbabwe than to entice them into dishonest behavior with 
large sums of foreign money.
    A number of respected commentators in the United States and 
elsewhere have called on the United States and Western 
governments to support the MDC's health and education 
departments. In addition to satisfying the understandable 
humanitarian impulse, the argument goes, Western aid could help 
the MDC accomplish concrete goals and improve the welfare of 
the Zimbabwean people, thus showing the difference between the 
self-interested ZANU-PF and the MDC.
    I believe that this point would be much more serious if 
there was a likelihood of a democratic transfer of power. That 
I do not see as very likely. Still, should the United States 
decide to increase aid to education and health departments in 
Zimbabwe, such aid should be accompanied by the highest degree 
of scrutiny. In my view, it should be ultimately overseen by 
American officials, secunded to health and education 
departments in Zimbabwe.
    In order to prosper, Zimbabwe needs to adopt the economic 
policies that enabled Hong Kong, Singapore, Chile, South Korea, 
Taiwan, and many other previously poor countries to rise from 
poverty to riches in a space of one or two generations. I 
believe that with a liberalized trade and domestic business 
environment, with a reformed judiciary that puts emphasis on 
the sanctity of persons and property, Zimbabwe can prosper as 
many countries have done in the past.
    Thank you.
    [The prepared statement of Mr. Tupy follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you very much.
    Let me begin by asking you--I think it was you, Mr. 
Muchena. You mentioned that you felt that in addition to the 
SADC, that the AU should be involved. Can you give me your 
feeling of the effectiveness of SADC under Thabo Mbeki's 
leadership as president of South Africa, now with President 
Jacob Zuma leading South Africa, and therefore SADC indirectly, 
and why your feeling that it should be expanded to the overall 
Africa Union?
    Mr. Muchena. Thank you, Chairman. The role of Thabo Mbeki 
as mediator, it is successes and failures. But one of the most 
outstanding things about Thabo Mbeki's role was the total 
contempt that he held for Zimbabweans, especially the 
opposition groups in Zimbabwe, and his overwhelming commitment 
in his role to save a decaying nationalist movement and impose 
his own will and looking at Zimbabwe through the lens of 
domestic political affairs in South Africa. So what he did most 
was to ensure that no progress would go forward that would 
essentially correspond with the will of the people. I think 
that is the hallmark of Mbeki's role.
    He also sidestepped many of the people and ensured that 
Zimbabwe was his personal project and called in the African 
Union when he wanted it to come. But you will see that it was 
the African Union, driven in part by Article 4 of the 
constitutive act of the African Union, which is responsibility 
to protect doctrine, that they moved a motion Sharm el Sheikh 
to become involved in Zimbabwe and support SADC and guarantee 
the success of the GPA process.
    Since then, President Zuma has moved to take on the 
facilitation role of reporting to AU leaders from time to time. 
We think that the energy that was displayed by President Zuma 
in the initial months are beginning to falter and he needs to 
shorten the arm. And the shortened arm can come nowhere else 
than within the African Union itself, which is meeting, as you 
know, in February next year, and putting the matter on the 
agenda of the Africa Union so that it receives the report as a 
guarantor of the Global Political Agreement would enable 
movement in Zimbabwe.
    President Mugabe is not afraid of anyone in the world 
except fear of losing African support, and I think that is 
exactly what happened when the Sharm el Sheikh resolution was 
made. He discovered that he was now standing alone, and he went 
back and started to talk to opposition groups. It is time for 
the African Union to support the initiative of the SADC process 
by appointing a special envoy themselves who is going to engage 
directly with members of the parties but also with other people 
who are influencing the GPA, such as the military. And we think 
if that is done, there is a reasonable prospect that the United 
States and other actors can now support that process, which is 
African led and Zimbabwean led.
    Thank you.
    Mr. Payne. Thank you.
    Mr. McDonald, you have heard mention the Zimbabweans, that 
the next 6 months is going to be very critical. As an 
Africanist and have worked in conflicts and in areas where 
elections were coming, like in Namibia we have had, and South 
Africa and so forth, what would be four or five concrete steps 
you think that the U.S. should try to get support for?
    Mr. McDonald. Thank you, Mr. Chairman. I alluded to this in 
my opening remarks, what I think should be done in a pre-
election period. There is a variety of things, obviously. And I 
note that contained within the legislation that you have 
proposed and I think some of the sister legislation on the 
other side addresses some of this.
    We, I think, tend to make mistakes as we approach elections 
and democratic processes in Africa--the ``we'' being the 
Western World--by assuming if we support institutional 
structures and give resources to that, give training toward 
that, that that will solve the problem. It is important to work 
as we can with the Zimbabwe Electoral Commission, to work with 
local monitoring groups with training and et cetera--vastly 
important--and also work with party structures themselves--the 
MDC and the other parties--to help in their ability to campaign 
freely and fairly and understand competition does not mean 
violence.
    But there really needs to be preparation work done with 
individuals themselves. And I think that Mr. Masamvu here, and 
I believe Mr. Muchena mentioned it as well, but put his finger 
on a very, very important aspect, and that is security sector 
reform. Security sector reform is writ large. We all understand 
or it is rumored that the army has played a very ominous role 
in the current situation in Zimbabwe, that they have been the 
power behind the throne, so to speak, and may have even 
prevented Mugabe at one point in time in 2008 of making certain 
compromises with opposition that he might have wanted to make 
because their own interests were not being served by that, 
without some work with the military in advance. And by this I 
mean addressing the kinds of fears that they have that Mr. 
Masamvu pointed out.
    It is something we never think about that well, why are 
elements within society like a military totally intractable. We 
dealt with this with a Tutsi-led army in Burundi. Why are they 
so intractable to change? It is because they are fear actual of 
change. They are fearful of what role they will play. It is not 
just the loss of privilege and the loss of position and the 
loss of access to mineral wealth and that sort of thing. It is, 
what will become of them.
    There is real, truthfully, work that needs to be done in 
the true sense of conflict resolution and transformation with 
all of these elements. It is a big thing to try to do in a 
short amount of time when elections are on the horizon and we 
find ourselves repeatedly in this position where preparations 
for elections should have started years before and we are now a 
few months before them and we are beginning to think about it.
    But I think we have need to begin to think about that 
people factor, working not just with the parties but with the 
military as well, with the Zimbabwe Electoral Commission, 
obviously putting in funds for training and working with local 
observers and monitors and bringing in as we can and be helpful 
with the bringing in of credible outside monitors.
    Mr. Payne. Thank you. My time is expiring. Let me just ask 
you, Mr. Masamvu, what authority do you really feel that Prime 
Minister Tsvangirai has? Has his involvement as prime minister 
made much of a change in the activities? Are Zimbabweans better 
off today than they were before the MDC coalition GPA?
    Mr. Masamvu. Thank you, Mr. Chairman. I think the greatest 
thing which happened in Zimbabwe was for the leadership of the 
opposition to agree to go into the inclusive government, taking 
cognizance of the suffering which the general population was 
experiencing at the time. I must hasten to point out, Mr. 
Chairman, that if Zimbabwe had gone for a further 2 or 3 months 
without an inclusive government in place, no matter how flawed 
the GPA was, actually, except the country from erupting into 
civil strife. So, by and large, the relative stability, peace, 
and somewhat recovery which is being experienced in Zimbabwe 
right now is credited to the entry of Prime Minister Morgan 
Tsvangirai in government. Notwithstanding that, maybe the 
stakes or the balance of power is tilted against him. So to a 
very large extent right now the feeling on the ground--I was in 
Zimbabwe just about 2 weeks ago. When you ask the average, 
general person, no one is in the mood of in favoring an 
election. People are saying, Let this peace which we have been 
experiencing for the past 18 months proceed for some time. And 
they are all saying the opposition of Prime Minister Morgan 
Tsvangirai took a responsible decision by joining an inclusive 
government to allow people to pick up the pieces and sort of 
regroup and have peace in their lives.
    Mr. Payne. Thank you very much.
    Finally, Dr. Tupy, as you concluded your remarks about the 
waste and corruption and greedy politicians and bureaucrats you 
mention in Africa, therefore you are opposed to foreign aid. 
What is your opinion on Afghanistan and Iran? Are you opposed 
to Iraq and Afghanistan, the hundreds of millions, probably 
billions of dollars that we are sending over there in planes 
and cash? Is your position that you are opposed to criminal 
leaders in all countries--I know we just asked you about 
Zimbabwe--but what is your view to what the U.S. Government has 
been doing for the last 10 years in Iraq and in Afghanistan?
    Mr. Tupy. Thank you. Yes, sir. My position is consistent. I 
do not believe that the United States should provide foreign 
aid, economic development aid, to countries abroad, not simply 
because it is often stolen and wasted in the way as we see on a 
daily basis in Afghanistan, Iraq and elsewhere, but 
fundamentally because in some countries that receive large 
chunks of foreign aid--sorry, governments that receive large 
chunks of foreign aid generally tend to be much less open to 
reforms, much less eager to build up their own private sector 
than countries that do not receive foreign aid.
    Mr. Payne. Okay. Just maybe one quick question. You recall 
the Marshall Plan, and it might be from Europe. The Marshall 
Plan, actually it was not for foreign assistance. In the United 
States Marshall Plan, Europe probably would have taken another 
30 or 40 years before it recovered. There was an enormous 
amount of U.S. taxpayer money that went into the development of 
Europe, and--than assisting countries today.
    Mr. Tupy. Yes, sir. That is an excellent question.
    Mr. Payne. Make it quick so my colleagues can go. I am 
sorry. I don't know what is going on, but go ahead.
    Mr. Tupy. Four fundamental differences. One, the absolute 
amount of money involved in Marshall Plan is smaller than the 
amount of money that the United States alone, let alone the 
entire Western community, have given to Africa over the past 40 
years.
    Secondly, it was time-limited to 4 years. We have now been 
giving foreign aid to Africa and many other countries around 
the world for 40 years.
    Thirdly, in Europe, Marshall Plan was reconstructing 
economies, not developing economies. Europe was already a 
developed continent when money was provided by the United 
States to reconstruct it, not to develop it from scratch. This 
is a very important difference between reconstruction and 
development. We know how to reconstruct. We don't know how to 
develop.
    Mr. Payne. Unfortunately, my time has expired.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I will ask all 
questions all at once just so that we can get to Mr. Flake as 
well, and any of you who would like to answer the questions, 
please do so. First of all----
    Mr. Payne. We will have about 20 minutes or so, 25 to.
    Mr. Smith. First, on the issue of human trafficking, which 
is an issue that I and so many of us deeply care about. 
Zimbabwe is a Tier 3 country. It is an egregious violator when 
it comes to the government not meeting minimum standards, and 
that is as issued just as recently as last June by the Office 
of Trafficking in Persons within the administration. And in 
reading the report, it is a scathing indictment that, for 
example, orphans without birth certificates are particularly 
vulnerable to exploitation, enforced labor and prostitution. It 
points out that young men and boys are forced by Zimbabwean 
Government security forces to work in the diamond mines. It 
points out that women and girls from towns bordering South 
Africa and Zambia are forced into prostitution in brothels that 
cater to long-distance truck drivers. And it goes on into how 
severely exploited these women are, often contracting HIV/AIDS 
and other STDs.
    And then the point is officials made no apparent efforts to 
proactively identify victims of trafficking. There have been no 
reports, according to the TIP report, of prostitutions or 
convictions for forced labor or forced prostitution, and even 
in 2009, seven Zimbabwean men who were recruited in Zimbabwe by 
a Chinese national for jobs, once they got to their 
destination, their passports were confiscated, and they were 
subjected to forced labor. And again, the TIP report reads like 
an indictment.
    Your views on what needs to be done. Yes, we want to 
obviously create better institutions of government, but here is 
a mirror that has been held up with our minimum standards in 
our law, the Trafficking Victims Protection Act, and Zimbabwe's 
people, especially its women and children, are being exploited 
cruelly.
    Secondly, on the issue of religious freedom, on November 
17, the new religious freedom report came out and pointed out 
that the government harassed religious leaders who were 
critical of government policies, who spoke out against human 
rights abuses committed by the government, and who provided 
humanitarian assistance to citizens. It seems to me, like in 
every other government that we hope will matriculate from a 
dictatorship to a true thriving democracy, the churches, the 
faith community plays a key role in the cruelty that is being 
visited upon clergy and faith individuals who speak out. I 
would appreciate your views on that.
    And finally, you mentioned, Dr. Tupy, the Chinese prisoners 
that you reported upon, were they from Chinese gulags, brought 
in from China? Is that what you were talking about? And where 
does the wealth gleaned from the diamonds go? Does it go to 
Swiss bank accounts? Do we have any sense as to how that money 
was tracked, as the colonels and the generals rip off their own 
people who don't benefit from the diamond mines, for example, 
because it goes into their bank accounts?
    Mr. Tupy. Sure. I will start with the last question.
    The story of Zimbabwean prisoners working in the mines is 
well established. In terms of the Chinese prisoners, these are 
anecdotal stories that I heard from Zimbabweans, many of them 
former farm owners or laborers whom I contacted in the last, 
say, few months. Obviously, those are, as I said, anecdotal 
stories.All I was told, these are Chinese prisoners who are 
working there. I don't know whether these are political 
prisoners or prisoners who have been in prison----
    Mr. Smith. They are from China?
    Mr. Tupy. They are Chinese, yes. The Chinese have a long-
established practice of importing their own labor into African 
countries. In many other circumstances, instances like the one 
in Zambia, for example, the Chinese laborers seem to be free 
individuals who do so willingly. Not so in Zimbabwe where they 
are perceived to have a forced labor or, if you will, slave 
labor.
    I do not know specifically about gold. I do know that 
diamonds are exported out of Zimbabwe legally because the 
country is allowed to do so under the Kimberley Process, of 
which the United States is a part and perhaps could wield some 
influence there. And obviously, the companies that do so are 
very tightly connected to either the Russian or the South 
African Governments. We all know about the interaction between 
the South African Government, ANC government, and the ZANU-PF. 
So it is not difficult to imagine that there is a deal whereby 
some of the proceeds find themselves flowing back into the 
country, specifically to the Zimbabwean military and the top 
echelons of the ZANU-PF.
    Mr. Muchena. Thank you, Chairman. I will just add, on the 
diamond sector, the national budget presented to Parliament 
last week indicated that the proceeds from diamonds was $41 
million U.S., with about $8 million which are still supposed to 
be remitted.
    Now, if you look at the analysis that was done on the 
diamond sector, Zimbabwe is supposed to get at least $2 billion 
annually from its diamonds, in addition to the natural 
resources sector. So, clearly, there is a shortchanging that is 
going on, because the diamonds sector is not subjected to the 
extractive industry's transparent initiatives or other 
processes that are enhancing revenue collection to final 
development imperatives in the country. So we will continue to 
be plagued and, in fact, threatened by the problems of the 
resource curse, when the richness of the country is starting to 
become a curse, unless there is a greater transparency on that 
front.
    On the trafficking person question, I think it mirrors the 
fact that Zimbabwe's development indicated that it declined 
dramatically. With an unemployment rate of 90 percent, with a 
poverty level of 95 percent, moving from 62 percent in 1995, 
clearly the options for survival are diminishing, and people 
become vulnerable to sharks and other people who are dealing in 
persons. And I think none but renewal of political institutions 
of government, effective policing and employment creation will 
stop the process that you have described. Thank you.
    Mr. Masamvu. Thank you, Mr. Chairman.
    Just to add on to what Mr. Muchena has commented on the 
issue of diamonds, I think the issue that most of the inventory 
itself is now held in private is actually--it is a cover. And 
that is one in a way where you actually call these sanctions-
busting measures are actually, because most of these companies, 
you may be surprised, their identity is not being exposed for 
the simple reason that some of these companies may actually be 
coming from countries which has imposed restrictive measures 
also on Zimbabwe in terms of doing business.
    So the issue of the involvement of these--the local fair is 
sort of a coercive approach on how these measures which are in 
place are being implemented shows--is actually a sort of trip 
down to the issues of the sale of diamonds in terms of 
transparency.
    And to the extension that this has actually provided a war 
chest for the ZANU-PF in the upcoming elections that they are 
fully involved in, that most of the claims, they are actually--
you know, most of the other side of the government, like the 
ministers, even the Finance Minister, even the Prime Minister 
himself does not have the firsthand sort of understanding of 
how operations around the diamonds are being conducted. And 
this has actually given an avenue to actually to ZANU-PF to 
actually build its war chest, ready to face the election head 
on, fully resolved and then negotiate thereafter.
    So actually you can actually see the issue of the diamonds 
has actually become like the weapon which actually is going to 
determine the political dynamics in the next 6 months. Thank 
you.
    Mr. McDonald. Mr. Smith, in terms of your questions one and 
two, I absolutely share your abhorrence of that situation that 
you have described, and I think that whatever policy 
prescriptions we explore in terms of existing legislation and 
how we move into the future here has got to take that into 
account.
    I have worked in conflicted countries throughout Africa. We 
all know that human trafficking and the denial of religious 
freedoms are often a result of failed societies; of the loss of 
the normal sanctions of society; the destruction of family; the 
undercutting of the moral authority of church, of school; of 
the destruction of local governance. It is not just criminal--
well, it is criminal elements, but they are able to feed on 
destruction of society, and it is an awful thing. It is 
happening in other countries throughout Africa and throughout 
the world. It is something that I am very glad you have 
mentioned and I think needs to be focused on in terms of the 
recovery of the society. We talk about renewal, in quotation 
marks. There is no renewal if we don't address this question.
    Mr. Payne. Thank you. What we are going to do is, I would 
like to ask Ms. Woolsey if she would ask her questions and the 
panel to think of the answer to hers, and would ask Mr. Flake 
if he would also ask his questions before they answer. The 
Members will have the right to leave when they feel it is 
appropriate. We only have 4 minutes left. However, there are 
over 370 Members who have not voted yet, which is the key 
number. So we will leave it up to them. I usually stay longer 
than most, but I used to be fast.
    Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. Well, all of you, 
here is my question.
    Through the lens of the people of Zimbabwe, have there been 
any improvements over the last 18 months or 10 years in 
general, and if so, who has led those improvements, or who have 
impeded those improvements, and how vulnerable are the programs 
themselves, and how vulnerable are the providers of those 
programs?
    And let us use health care, if you will, as our example, 
health care, maternal health care, HIV/AIDS, cholera. What is 
happening with those concerns, and are they being treated, and 
how best can we, meaning the United States, the U.N., the EU, 
get Zimbabwe healthy again?
    Mr. Payne. Thank you.
    Mr. Flake.
    Mr. Flake. I would actually follow up on some of the 
questions with regard to mining and, really, the dynamic 
between the Finance Minister, controlled by the opposition, and 
the military, who control and seemingly funded back through. 
But I mean, if we are--I think the budget was introduced last 
week, $2.7 million. It was indicated by the Finance Minister 
that that represented all domestic revenue sources, not aid 
from the outside. How true is that?
    I mean, and is mining, you mentioned it could be as high as 
$2 billion. That is an annual figure, it could be? And we are 
only capturing $40 million or so there? Is it assumed that that 
amount is being plowed back into the military? Is that kind of 
the infrastructure, and if so, how in the world can you go into 
an election season satisfying the strictures that have been 
laid out in terms of ensuring that it is free or fair when you 
have that kind of money plowed back into the security structure 
that is controlled by Mugabe or ZANU-PF?
    So, anyway, that was kind of the questions I was going to 
ask. I will be satisfied with that. After we come back, I 
guess.
    Mr. Payne. Gentlemen, you may answer any way you would 
like.
    Mr. Tupy. I will try to answer, first of all, Congressman 
Flake.
    Reports that I have seen suggested hundreds of millions of 
dollars annually are being plowed back into the military and to 
the top party members and also for the police force. Both of 
these, the military and the police, are obviously absolutely 
vital. Their behavior will be vital in terms of whether the 
election will be free or fair.
    And in answer to your second question, no, I don't believe 
that the election under these circumstances can be free and 
fair, especially if the threat of violence by the repressive 
state apparatus is going to hang over the opposition as the 
sword of Damocles.
    And to you, Congresswoman Woolsey, the improvements in 
terms of health care and welfare in general in Zimbabwe happen 
because of simply the ability and the willingness of the 
Zimbabwean people to basically take care of themselves. They 
were prohibited from doing so by hyperinflation, which ran to 
trillions of percent, and also by political violence. Once 
hyperinflation was subdued and they were able to deal in a 
normal currency, such as the U.S. dollar and the South African 
rand, and once political violence had subsided, people returned 
to what they do best, which is to improve their lot. And so we 
are seeing gradual increases in welfare in Zimbabwe, and I 
would expect those to continue until the political situation 
doesn't become unbearable again.
    Mr. Muchena. Thank you, Mr. Chairman.
    I would start by answering Congresswoman Woolsey's 
question. I think that there has been a lot of improvement. I 
think that is what we started by saying that there has been 
dramatic improvement in the 2 years since the Global Political 
Agreement was consummated, and specifically on the sectors that 
you talked about, health, education.
    Keep in mind that Zimbabwe has a proud investment record in 
education and health on the continent, with leading industries, 
up until 2000, and the continent started to dramatically 
collapse. But in the last year alone, all schools that had been 
closed in 2007 and 2008 were opened, which was good. We also 
had health sectors opening up, and we also had cholera which 
had been totally eliminated, which had become a scourge.
    So there has been improvement. This improvement is now 
being affected by the threat to the return of the old order. I 
think that is the point we are making.
    In terms of the economy, the mining sector, the total 
contribution of the mining sector of the budget was 44 percent, 
and that not only includes diamonds, it also includes gold, 
platinum, and so on. And as a result of the restoration of 
stability, we started to see profits in the mining sector. So 
what needs to actually happen is a much more predictable 
economic management system and economic government system to 
fully exploit the opportunity of a buoyant mining sector in 
Zimbabwe which can actually finance the budget.
    This has been why Minister Biti could not rely on foreign 
dollars coming in the budget because the vote of credit was 
expected to be at $800 million. They have only mobilized $200 
million in the last year. So he decided, no, let us go it 
alone. This is why I am saying 60 percent of the resolution of 
the Zimbabwean crisis can be done domestically, through 
reforming laws, political reforms and so on, and the 
international can accompany that progress. And I think part of 
the record is being indicated in the Minister of Finance's 
conduct, including ensuring that the government and central 
bank is quarantined to a more central governance role than what 
they have been doing in the last couple of years. Thank you.
    Mr. Masamvu. Thank you, Chairman.
    Just to keep on quickly to what Mr. Muchena has said, I 
think the general attitude of the people of Zimbabwe is really 
seeing the benefits of the inclusive government in the past 18 
months. To an extent, this is the feeling which is driving the 
general dislike of having, let's call it a premature call for 
an election. The people wanted this inclusive government to be 
sustained for a period of maybe 2 to for the next 3 years or so 
to allow the green shoots which are happening in the 
noneconomic front to actually sort of be sustained.
    We probably will see a vast improvement in education, you 
know, in terms of schools, textbooks, and all in the collective 
of the human talent plans extended especially at the onset of 
the inclusive government.
    I believe this is what--actually, when people look at the 
next election coming, the fears are for a relapse to the pre-
March 2008 where the shops were not in food. Right now there is 
a growing fear that if this election talk reaches a crescendo 
after the new year, we are actually going to see a situation 
where there will be a situation of small capital flight which 
was in going out, shortages of food because of political 
instability.
    No wonder why is what we have been restating on this panel, 
that what needs to be done in the next 6 months in terms of 
doing a course correction in terms of engaging with South 
Africa and SADC is to go to villages and to answer is Zimbabwe 
ready for an election? And I think this should be looked into 
what context of the reforms and the need to have the country to 
heal before any other election can be held.
    Mr. Payne. Thank you. A quick response.
    Mr. McDonald. Yeah, to Congresswoman Woolsey's question. 
First of all, when you asked it, you said, has there been any 
improvements in the last 10 years and last 18 months? Very, 
very important to keep those time frames in mind because of the 
last 10 years, absolutely not; in the last 18 months, yes. It 
is not coincidental, and it has been mentioned that that is 
coinciding with the September 2008 GPA and the formulation of 
the coalition government.
    You asked who and how any improvements that have taken 
place have come about. In these last 3 years or so 
approximately years since GPA, there has been an increased flow 
of foreign aid, around $800 million a year, and that has been 
very targeted, not through government; very targeted in health, 
education, water, sanitation. So it really has been of great 
assistance, I believe, and created the situation of 
improvement.
    The Ministry of Finance, already been discussed or 
reiterated, attacking the inflation problem, attacking the--
decoupling the currency and going back to U.S. dollar basis has 
really helped, but what Dr. Tupy said is very important. The 
people are resilient. I think what you are seeing here is also 
reflected in their hope for the future; not just their 
resilience and relying on themselves and getting by and getting 
through, but because they see hope for the future, there is a 
renewed spirit. Obviously that hope can be dashed very easily 
if the coalition government doesn't work, if the elections 
don't come about, Constitution isn't put in place. But I think 
we are seeing that rising aspiration now as people are hopeful 
that things may come right.
    Mr. Payne. Let me certainly thank the panel. Unfortunately 
we are going to have to leave in a minute, but I also agree 
that I think Zimbabwe has a great future if we can get over 
this hurdle of the next 6 months are important, if we can move 
to a new Zimbabwe.
    Let me ask for unanimous consent that Members have 5 
legislative days to revise and extend their remarks. Without 
objection, so ordered.
    Once again, let me thank the witnesses for being here. It 
is my hope that H.R. 5971 will be seriously considered, and 
that the U.S. policy will take full advantage of the window of 
opportunity in Zimbabwe.
    Thank you all again for your testimony, and the meeting 
stands adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
